TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Accountability Over Volunteer Program
                     Computers Has Significantly Improved,
                     but Providing Computers to Volunteers
                           Presents Many Challenges



                                            May 7, 2010

                              Reference Number: 2010-40-053




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


ACCOUNTABILITY OVER VOLUNTEER                           Computer Depot were accounted for and
PROGRAM COMPUTERS HAS                                   taxpayer data were protected. Most
SIGNIFICANTLY IMPROVED, BUT                             computers assigned to volunteers could be
PROVIDING COMPUTERS TO                                  accounted for and were in operating
                                                        condition.
VOLUNTEERS PRESENTS MANY
CHALLENGES                                              During Fiscal Year 2009, 20 Volunteer
                                                        Program computers were reported as lost or
                                                        stolen. The IRS did not ensure the required
Highlights                                              procedures were followed when the
                                                        computers were lost or stolen, and it had no
Final Report issued on May 7, 2010                      procedures for notifying law enforcement
                                                        agencies when stolen computers were
Highlights of Report Number: 2010-40-053 to             recovered.
the Internal Revenue Service Chief                      The IRS is seeking changes to legislation that
Technology Officer and the Commissioner for             would allow it to donate computers to Volunteer
the Wage and Investment Division.                       Program partners. It currently cannot donate the
IMPACT ON TAXPAYERS                                     computers to Volunteer Program organizations
                                                        because the law prohibits it. The IRS must
In an effort to promote electronic filing (e-filing),   maintain the computers, loaning them out each
the Internal Revenue Service (IRS) provides             filing season. Considering the minimal value
computers to enable Volunteer Program sites to          and the cost of maintaining and controlling the
offer taxpayers the option of e-filing their tax        computers, the IRS’ plan to donate them to the
returns. The IRS maintains an inventory of              partners to benefit tax administration has merit.
more than 12,000 computers for the Volunteer
Program, which creates significant challenges           WHAT TIGTA RECOMMENDED
for the IRS, particularly with ensuring the             TIGTA recommended that the IRS implement a
computers are accounted for and are operating.          process to ensure law enforcement agencies are
When computers are not accounted for and not            notified when stolen computers are recovered
operating, the risk increases that taxpayer data        and ensure established procedures are followed
will be unprotected and taxpayers will not be           when documenting lost or stolen Volunteer
able to have their tax returns prepared.                Program computers.
WHY TIGTA DID THE AUDIT                                 The IRS agreed with the recommendations. It
The overall objective of this review was to             plans to implement a process to ensure law
assess whether computers used in the                    enforcement agencies are notified when a stolen
Volunteer Program are properly accounted for            computer is recovered and plans to
and controlled. The IRS requested this review.          re-emphasize established procedures to
It is a followup to a prior TIGTA report,               document lost or stolen computers with partners
Accountability Over Volunteer Income Tax                and employees.
Assistance Program Computers Continues to
Be a Problem (Reference Number
2006-40-172, dated September 25, 2006).
WHAT TIGTA FOUND
The IRS has made significant improvements
since the prior audits and has implemented
sufficient controls over the computers used
in the Volunteer Program. The IRS stores
the computers at its Computer Depot. Tests
showed that computers assigned to the
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               May 7, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Accountability Over Volunteer Program
                             Computers Has Significantly Improved, but Providing Computers to
                             Volunteers Presents Many Challenges (Audit # 200940046)

 This report presents the results of our review to assess whether computers used in the Volunteer
 Program are properly accounted for and controlled. This review was requested by the Internal
 Revenue Service and is a followup to a prior Treasury Inspector General for Tax Administration
 report. 1 This audit is included in our Fiscal Year 2010 Annual Audit Plan and addresses the
 major management challenges of Security, Taxpayer Protection and Rights, and Providing
 Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
  Accountability Over Volunteer Income Tax Assistance Program Computers Continues to Be a Problem (Reference
 Number 2006-40-172, dated September 25, 2006).
                                Accountability Over Volunteer Program Computers
                               Has Significantly Improved, but Providing Computers
                                     to Volunteers Presents Many Challenges




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Controls Over Volunteer Program Computers Have
          Significantly Improved .................................................................................Page 3
          Controlling and Maintaining Volunteer Program Computers
          Comes at a Considerable Cost to the Internal Revenue Service...................Page 4
                    Recommendations 1 and 2: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Managing and Controlling Volunteer Program
          Computers .....................................................................................................Page 14
          Appendix V – Procedures for Reporting and Documenting Lost or
          Stolen Computers..........................................................................................Page 18
          Appendix VI – Management’s Response to the Draft Report ......................Page 19
                       Accountability Over Volunteer Program Computers
                      Has Significantly Improved, but Providing Computers
                            to Volunteers Presents Many Challenges




                                 Abbreviations

e-filing; e-file(d)       Electronic filing; electronically filed
IRS                       Internal Revenue Service
ITAMS                     Information Technology Asset Management System
SPEC                      Stakeholder Partnerships, Education and Communication
STARS                     SPEC Taxpayer Assistance Reporting System
TIGTA                     Treasury Inspector General for Tax Administration
                            Accountability Over Volunteer Program Computers
                           Has Significantly Improved, but Providing Computers
                                 to Volunteers Presents Many Challenges




                                             Background

The Volunteer Program plays an increasingly important role in the achievement of the Internal
Revenue Service’s (IRS) goal of improving taxpayer service and facilitating participation in the
tax system. It provides no-cost Federal tax return preparation and electronic filing (e-filing)
directed toward underserved segments of individual taxpayers,
including low-income to moderate-income, elderly, disabled,
                                                                           Volunteers play an
and limited-English-proficient taxpayers. It includes sites          increasingly important role
operated in partnership with the military and with various            in helping the IRS achieve
community-based organizations. 1 The Volunteer Program is                its goal of improving
comprised of the Volunteer Income Tax Assistance Program,                taxpayer service and
the Tax Counseling for the Elderly Program, and the Volunteer         facilitating participation in
Income Tax Assistance Grant Program.                                         the tax system.

In an effort to promote e-filing, the IRS provides computers to
enable Volunteer Program sites to offer taxpayers the option of
e-filing their tax returns. These computers are loaded with the
tax preparation software necessary to e-file a tax return with the
IRS. For the 2009 Filing Season, 2 more than 82,000 volunteers
staffed 12,160 Volunteer Program sites. Volunteers prepared approximately 3 million individual
income tax returns at Volunteer Program sites. The IRS is expected to ship approximately
9,100 computers to Volunteer Program volunteers for the 2010 Filing Season.
Oversight of the Volunteer Program is the responsibility of the Stakeholder Partnerships,
Education and Communication (SPEC) function, located within the IRS Wage and Investment
Division. However, the computers volunteers use in the Volunteer Program are also the
responsibility of the IRS’ Modernization and Information Technology Services organization.
This audit is a followup to two prior Treasury Inspector General for Tax Administration
(TIGTA) audits 3 that determined the IRS did not have sufficient controls over the Volunteer
Program computers. In August 2002, we reported that the IRS did not have adequate internal
controls and accountability over the computers it provided to volunteers. The IRS could not
physically account for computers provided to Volunteer Program volunteers. This happened


1
  Some community-based Volunteer Program sites are located in buildings occupied by one or more IRS offices.
2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
3
  Computers Used to Provide Free Tax Help and That Contain Taxpayer Information Cannot Be Accounted For
(Reference Number 2002-40-144, dated August 13, 2002) and Accountability Over Volunteer Income Tax
Assistance Program Computers Continues to Be a Problem (Reference Number 2006-40-172, dated
September 25, 2006).
                                                                                                            Page 1
                           Accountability Over Volunteer Program Computers
                          Has Significantly Improved, but Providing Computers
                                to Volunteers Presents Many Challenges



because the IRS did not consistently conduct the required annual certification of the Information
Technology and Asset Management System (ITAMS), 4 immediately record receipt of new
computers on the ITAMS, and update inventory records when equipment was delivered.
In September 2006, we again reported that key controls designed by the IRS to assist in
accounting for computers were not consistently being followed. During this review, much of the
information provided to support the accounting for Volunteer Program computers was
inconsistent and changed throughout the course of the audit. Though the IRS accounted for
97 percent (191 of 197) of the computers sampled, repeated attempts were necessary to locate the
computers. Additionally, the IRS did not ensure required procedures were followed when
recording the disposal of computers on the ITAMS.
The IRS took actions to address concerns, which included certifying the Volunteer Program
computer inventory beginning in Fiscal Year 2006, developing guidelines outlining
responsibilities of the SPEC and the End User Equipment and Services functions, and monitoring
and limiting the ability to change the ITAMS name data field.
This audit was conducted at the request of the Modernization and Information Technology
Services organization. It suggested that the TIGTA conduct a review of the Volunteer Program’s
information technology program management to include asset management, sensitive taxpayer
data security requirements adherence, and financial resource management.
This review was performed at the Wage and Investment Division’s SPEC function in
Atlanta, Georgia, and End User Equipment and Services function at the Brookhaven Campus 5 in
Holtsville, New York, during the period September 2009 through February 2010. This
performance audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




4
  The ITAMS is the IRS’ authoritative record for asset control, where each piece of equipment is tracked from
procurement to disposal.
5
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                            Accountability Over Volunteer Program Computers
                           Has Significantly Improved, but Providing Computers
                                 to Volunteers Presents Many Challenges




                                      Results of Review

Controls Over Volunteer Program Computers Have Significantly
Improved
The IRS has made significant improvements since the prior audits and has implemented
sufficient controls over the computers used in the Volunteer Program. The IRS stores the
computers at its Computer Depot, 6 and they are controlled on two different computer systems—
the ITAMS and SPEC Taxpayer Assistance Reporting System (STARS).
Tests of computers controlled on the STARS showed that computers assigned to the Computer
Depot were accounted for and controlled. 7 Additionally, most computers assigned to volunteers
could be accounted for and were in operating condition.
•   51 (100 percent) of 51 computers assigned to the Computer Depot were accounted for.
    Forty-one were located at the Computer Depot and 10 computers had been shipped to
    volunteers prior to testing. Additionally, for the 41 computers located at the Computer
    Depot, testing showed the computers were operational and that no taxpayer data were found.
•   33 (66 percent) of 50 computers assigned to volunteers were verified by the volunteers as
    being in their possession. Adequate documentation was not received from 13 (26 percent)
    volunteers and 1 (2 percent) computer that had been reassigned to the Computer Depot could
    not be accounted for. No response was received from the volunteers who were assigned the
    remaining 3 (6 percent) of the 50 computers.
•   40 (80 percent) of 50 computers assigned to volunteers were operational; 3 (6 percent) were
    reported as not operational. The operating status of the other seven could not be determined
    because the computers were returned to the Computer Depot and were not tested or the
    volunteers did not respond when asked if their computers were operating. However,
    1 partner 8 responded that 18 computers were received for the 2010 Filing Season and
    6 (33 percent) were not operational.
Additionally, the most recent annual inventory certification was completed on July 22, 2009, and
12,601 computers were certified. Twenty-nine computers were placed in a pending status on the

6
  A centralized location that receives computers for the Volunteer Program, prepares them for use by loading the
operating system and tax preparation software, ships them to volunteers, and stores them when they are not in use.
7
  Two statistically valid samples of 51 and 50 computers were selected. Three tests were conducted on these
101 computers. See Appendix I for details of the selection methodology.
8
  The IRS partners with various organizations—corporate, faith-based, non-profit, educational, financial, and
government—to combine resources and goals to assist taxpayers in satisfying their tax responsibilities.
                                                                                                            Page 3
                              Accountability Over Volunteer Program Computers
                             Has Significantly Improved, but Providing Computers
                                   to Volunteers Presents Many Challenges



ITAMS but were located and certified by September 30, 2009. An annual inventory certification
of computers located at the Computer Depot involves touching each computer controlled on the
ITAMS and certifying that the computer has been located.

The IRS uses two computer systems to control Volunteer Program computers
The STARS inventory system is used to account for Volunteer Program computers because the
ITAMS cannot capture information specific to the Volunteer Program—the partner, site, or
volunteer assigned to each computer. This information is captured on the STARS. In Calendar
Year 2010, the IRS will be replacing the ITAMS and STARS.
As a result of prior recommendations, the IRS has strengthened its controls over the Volunteer
Program computers by integrating the ITAMS and STARS. In an effort to ensure the STARS
and ITAMS agree, we conducted limited testing during this review and did not identify any
major weaknesses identified in prior TIGTA reports. However, because the IRS is in the process
of implementing two new systems that will replace the ITAMS and STARS, it is essential that
the current information is accurate and that similar controls are in place to maintain the integrity
of the information.

Controlling and Maintaining Volunteer Program Computers Comes at
a Considerable Cost to the Internal Revenue Service
The strengths of the Volunteer Program lie in its volunteers and partner organizations. However,
relying on volunteers to deliver the Program has inherent risks. Further, maintaining an
inventory of more than 12,000 laptop computers to be supplied to volunteers creates significant
challenges for the IRS, particularly ensuring the computers are controlled and are operating.
The IRS loans computers to volunteers to promote e-filing and provide free tax return
preparation to taxpayers. The IRS estimates that it costs approximately $3.8 million annually to
maintain Volunteer Program computers. 9
The Volunteer Program computers are computers that have become obsolete. Once computers
used by IRS employees become outdated, they are transferred to the Computer Depot for use by
the Volunteer Program. When the Computer Depot receives a computer from an IRS function, a
Computer Depot employee updates the ITAMS to show the computer is located at the Computer
Depot. When selected for use in the upcoming filing season, a Computer Depot employee:
      •    Ensures the computer is in good working order and that no taxpayer data are on the hard
           drive, performs maintenance and imaging, and loads tax preparation software. This takes
           approximately 3 hours.



9
    See Appendix IV for lists of actions taken to control Volunteer Program computers.
                                                                                             Page 4
                           Accountability Over Volunteer Program Computers
                          Has Significantly Improved, but Providing Computers
                                to Volunteers Presents Many Challenges



     •   Prepares a packing list.
     •   Packages and ships the computer with the peripherals to the Volunteer Program partner,
         who then provides the computer either to the Volunteer site coordinators or directly to the
         volunteer.
     •   Updates the ITAMS to show the computer is in use and is no longer in stock in the
         Computer Depot.
For computer orders, a SPEC function employee:
     •   Receives the order from the partner.
     •   Notifies the Computer Depot of the partner’s request.
     •   Ensures the STARS reflects the contact information and location of the computer.
When the STARS is updated, the ITAMS is systemically updated showing the most current
information.
If a volunteer has problems with a computer, he or she must package and ship it back to the IRS
Computer Depot and the IRS must ship another computer to the volunteer. Since these
computers are not considered the property of the volunteers or partners, each computer, even if
inoperable, must be accounted for. Additionally, the IRS conducts an annual inventory and
certification of all computers.
The Computer Depot replaced 1,087 computers (640 through helpdesk requests by volunteers
plus 447 through proactive replacements due to
failed batteries) during the 2009 Filing Season
                                                              The Computer Depot replaced
and 340 computers between January 1 and                  1,087 computers during the 2009 Filing
February 16, 2010. Additionally, during a current          Season and 340 computers between
TIGTA audit, 10 a review of a Volunteer Program             January 1 and February 16, 2010.
site found problems with printers a SPEC function
Territory 11 provided to the site. For example, some
printers were not operable and had to be replaced. Others were not compatible with the
volunteers’ non-IRS computers. The printer drivers 12 required to print tax returns were not
included with the printers or loaded on the computer. This situation required that the Territory
provide additional resources to ensure the site was operational.
The IRS requires that the computers be shipped back to the Computer Depot each year by
May 15. At that time, the partners are responsible for wiping the computers clean of all taxpayer


10
   Quality of Services at Volunteer Program Sites During the 2010 Filing Season – Followup (Audit # 201040018).
11
   The SPEC function is divided geographically into 4 Areas and 37 Territories.
12
   Software that converts data to be printed to the form specific to a printer.
                                                                                                        Page 5
                              Accountability Over Volunteer Program Computers
                             Has Significantly Improved, but Providing Computers
                                   to Volunteers Presents Many Challenges



data. The IRS employees must unpack the computer and peripherals and update the ITAMS to
show the computer has been returned.

Though few computers were stolen, procedures are not always followed when
documenting and reporting the loss and procedures are not adequate when
computers are recovered
During Fiscal Year 2009, 20 (0.17 percent) Volunteer Program computers out of approximately
12,000 computers were reported as lost or stolen. Ten of these were in the possession of
volunteers at the time they went missing. When the IRS or volunteers determine that computers
are lost or stolen, significant resources are needed to complete the paperwork and follow the
procedures required to ensure all steps have been taken to locate the computers. The computers
themselves hold very little value but can contain taxpayer information. However, all computers
are encrypted and require a password, reducing the risk of disclosing taxpayer information.
Not all procedures were followed when documenting and reporting lost and stolen computers.
The IRS guidelines require employees to research and attempt to locate computers to protect IRS
assets and taxpayer information by completing the following: 13
       1) Performing a physical search for the computer based on location and contact information
          reflected in the ITAMS and/or STARS.
       2) Contacting the last person responsible for possession of the computer.
       3) Contacting the responsible person.
       4) Contacting the TIGTA Office of Investigations.
       5) Contacting the local police department.
       6) Determining whether taxpayer data were at risk.
A test of 20 computers reported lost or stolen showed proper procedures were not followed and
documentation was not maintained for 13 (65 percent).
       •   3 (15 percent) computers assigned to volunteers had documentation that was not adequate
           to determine whether the loss or theft was timely reported to the IRS. Two computers
           showed that taxpayer data were on the computers when stolen, but the number of
           taxpayers whose data were at risk could not be determined. According to the
           documentation, the number of taxpayers ranged from 2 to 300.
       •   2 (10 percent) computers did not have documents adequate to determine who was in
           possession of the computer or whether the loss or theft was timely reported.



13
     See Appendix V for details of the required procedures.
                                                                                           Page 6
                            Accountability Over Volunteer Program Computers
                           Has Significantly Improved, but Providing Computers
                                 to Volunteers Presents Many Challenges



     •   8 (40 percent) computers were missing while assigned to the Computer Depot. The
         Computer Depot employees believe these computers were previously retired but scanned
         into the inventory in error while still at the Computer Depot.
Three of the 20 computers reported as lost or stolen were shown in the ITAMS as recovered and
were included in the IRS’ annual certification. However, there was no documentation in the file
and no notification made to the local police department and the TIGTA Office of Investigations
of the computers being located. The IRS stated there are no procedures, other than updating the
ITAMS, for documenting recovered computers or notifying law enforcement agencies that the
computers have been recovered.
A prior TIGTA report 14 stated that the IRS did not ensure required procedures were followed
when documenting lost computers. The IRS is still not ensuring that procedures for reporting
and documenting lost or stolen computers are being followed, and because of inadequate
documentation, the reliability of the information could not be substantiated. As a result of not
notifying law enforcement agencies when computers are recovered, the law enforcement
agencies are expending resources by continuing to investigate stolen computers that the IRS has
found. Additionally, even though IRS computers loaned to the Volunteer Program sites are
encrypted, which mitigates risk to taxpayer data, encryption is not failsafe. As a result of not
following procedures and having inadequate documentation, there is still a risk that taxpayer data
are not entirely safe and secure.

The IRS is seeking a change to legislation to allow it to donate computers to
Volunteer Program partners
The IRS does not purchase new computers for the Volunteer Program, but provides computers it
considers outdated and no longer suitable for its employees. It cannot donate the computers to
the Volunteer Program partners because the law 15 prohibits the donation of computers to
volunteers. Therefore, the IRS must maintain the computers, loaning them out each filing
season.
In Calendar Year 2007, the IRS began developing a plan to discontinue the practice of loaning
computers to its Volunteer Program partners. Rather than loan the computers, the IRS would
prefer to donate the computers to the partners and supplement the resources on an as-needed
basis. For example, if computers become inoperable, the IRS would donate another computer
but not have the broken computer returned for tracking, repair, and/or disposal. Rather, the
volunteer or partner would own the computer and be responsible for maintenance and disposal of
the computer. The IRS also provides printers to the volunteers, but would discontinue providing
printers.

14
   Accountability Over Volunteer Income Tax Assistance Program Computers Continues to Be a Problem
(Reference Number 2006-40-172, dated September 25, 2006).
15
   Pub. L. No. 81-152, 63 Stat. 377 (codified as amended in scattered sections of 40 U.S.C. and 41 U.S.C.).
                                                                                                              Page 7
                         Accountability Over Volunteer Program Computers
                        Has Significantly Improved, but Providing Computers
                              to Volunteers Presents Many Challenges



The IRS has worked with some partners to assist them in purchasing their own computers. For
example, the SPEC function is actively working with the AARP to use grant money to purchase
its own computers. The IRS loaned the AARP about 5,500 computers for the 2010 Filing Season
(more than one half of the 9,100 computers loaned).
In December 2007, Congress first appropriated funds to the IRS to establish and administer a
Volunteer Income Tax Assistance Grant Program in which grantees are awarded matching grants
to extend services to underserved populations in hardest-to-reach areas, both urban and
nonurban. In Fiscal Year 2009, the IRS awarded almost $8 million in matching grants to
111 organizations that planned to offer free tax preparation sites during the 2009 Filing Season.
In Fiscal Year 2010, $8 million was awarded to 147 organizations for the 2010 Filing Season.
The IRS believes that these Volunteer Income Tax Assistance Grant Program funds could be
used to purchase computers.
One SPEC function Territory no longer provides Volunteer Program computers to non-AARP 16
partners. The Territory developed a plan in July 2006 to become equipment free over a 2-year
period. By working with its partners, the Territory achieved its goal by May 2008. During the
process, no partners left the Volunteer Program and there was no reduction in the number of tax
returns prepared. Moreover, the Territory e-filing growth rate exceeded the national and Area
average for each of the 2 years.
The IRS believes reducing the partners’ reliance on IRS computers would benefit both the IRS
and the Volunteer Program partners. For the IRS, there is a significant cost savings. For the
partners, there is increased self-sufficiency and the use of more stable equipment.
However, not all partners may have the resources to purchase, set up, and maintain their own
computers. Additionally, partners may have expectations of continued equipment loans and have
no incentive to become self-sufficient. If the IRS stops loaning computers, there is a risk of
some partners leaving the Volunteer Program.
The SPEC function must balance the needs of the volunteers with the IRS’ mission and goals.
As it strives to achieve its mission and goals and provides accountability for its operations, the
SPEC function has to continually assess and evaluate the Volunteer Computer Program.
Considering the minimal value of the computers and the cost of maintaining and controlling
them, the IRS’ plan to donate the computers to the partners to benefit tax administration has
merit.




16
  AARP computer requirements are processed through SPEC function Headquarters, whereas non-AARP computer
requirements are processed through the Territory.
                                                                                                 Page 8
                        Accountability Over Volunteer Program Computers
                       Has Significantly Improved, but Providing Computers
                             to Volunteers Presents Many Challenges



Recommendations
Recommendation 1: The Chief Technology Officer should implement a process to ensure
law enforcement agencies are notified when a stolen computer is recovered.
       Management’s Response: IRS management agreed with this recommendation. The
       Asset Management Program Office will implement an Asset Management Directive that
       will update the process for stolen computers and provide guidance on ensuring law
       enforcement agencies are notified when a stolen computer is recovered.
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure
established procedures, such as fully completing the lost or stolen checklist, are followed when
documenting lost or stolen Volunteer Program computers.
       Management’s Response: IRS management agreed with this recommendation. The
       SPEC function office will re-emphasize established procedures to document lost or stolen
       Volunteer Program computers with partners and SPEC function employees. This
       message will be conveyed via all employee conference calls, partner calls, and email
       notification.




                                                                                           Page 9
                            Accountability Over Volunteer Program Computers
                           Has Significantly Improved, but Providing Computers
                                 to Volunteers Presents Many Challenges



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess whether computers used in the Volunteer Program are
properly accounted for and controlled. To accomplish this objective, we:
I.      Determined whether the SPEC function properly controlled and accounted for Volunteer
        Program computers.
        A. Determined whether guidelines outlining the responsibilities of the SPEC function’s
           control and accountability of Volunteer Program computers have been developed and
           are clear and effective.
        B. Interviewed SPEC function management to determine its responsibilities.
        C. Requested a STARS and ITAMS extract from the Modernization and Information
           Technology Services.
        D. Validated the reliability of the STARS 1 and ITAMS 2 data by comparing the two
           extracts to determine whether there were any discrepancies, tracing and verifying the
           data from the samples reflected in Steps I.E. and II.C., accessing the STARS and
           comparing the data, and receiving and comparing ITAMS screen prints from the
           Computer Depot 3 to the extracts.
        E. From the STARS extract, we selected a statistically valid sample of 50 computers
           from a population of 1,815 computers reflected as “in use.” We used a confidence
           interval of 95 percent, a precision level of ±5 percent, and an expected error rate of
           5 percent. We determined the persons assigned the computers, contacted the
           individuals to determine whether they had possession of the computers and, if so,
           obtained the barcodes and serial numbers of the computers in their possessions. We
           matched this information to our sample of inventory records to confirm the accuracy.
           We also determined whether the computers were correctly controlled on the ITAMS.
        F. Determined whether the Computer Depot shipped defective computers to Volunteer
           Program sites by using the statistically valid sample in Step I.C. We notified the
           person assigned the computer and determined the quality of the computer.


1
  The SPEC function’s computer system that is used to control Volunteer Program computers.
2
  The IRS’ authoritative record for asset control, where each piece of equipment is tracked from procurement to
disposal.
3
  A centralized location that receives computers for the Volunteer Program, prepares them for use by loading the
operating system and tax preparation software, ships them to volunteers, and stores them when they are not in use.
                                                                                                           Page 10
                       Accountability Over Volunteer Program Computers
                      Has Significantly Improved, but Providing Computers
                            to Volunteers Presents Many Challenges



       G. Determined whether procedures are being followed when disposing of computers by
          obtaining the case files for lost or stolen computers.
II.    Determined whether computers are properly controlled by the End User Equipment and
       Services function Computer Depot.
       A. Determined whether guidelines outlining the responsibilities of the End User
          Equipment and Services function Computer Depot control and accountability of
          Volunteer Program computers have been developed and are clear and effective.
       B. Interviewed Computer Depot management and obtained and reviewed Computer
          Depot’s guidelines to determine whether procedures for controlling and accounting
          for Volunteer Program computers are adequate.
       C. From the STARS, selected a statistically valid sample of 51 computers from a
          population of 10,333 computers that were physically located at the Computer Depot.
          We used a confidence interval of 95 percent, a precision level of ±5 percent, and an
          expected error rate of 5 percent. We determined whether the computers could be
          located and whether taxpayer data were found on the computers. We also determined
          whether the computers were correctly controlled on the ITAMS.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’ policies, procedures, and
practices for controlling Volunteer Program computers. We evaluated these controls by
interviewing management, reviewing extracts, validating computer locations, and reviewing case
files.




                                                                                      Page 11
                      Accountability Over Volunteer Program Computers
                     Has Significantly Improved, but Providing Computers
                           to Volunteers Presents Many Challenges



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Roberta Fuller, Lead Auditor
Jerome Antoine, Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor




                                                                                    Page 12
                      Accountability Over Volunteer Program Computers
                     Has Significantly Improved, but Providing Computers
                           to Volunteers Presents Many Challenges



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Associate CIO, End-User Equipment and Services OS:CTO:EU
Senior Operations Advisor, Wage and Investment Division SE:W:ETARC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 13
                            Accountability Over Volunteer Program Computers
                           Has Significantly Improved, but Providing Computers
                                 to Volunteers Presents Many Challenges



                                                                                                Appendix IV

                           Managing and Controlling
                         Volunteer Program Computers

All Volunteer Program computers are tracked and controlled on the ITAMS 1 and the STARS. 2
Managers and partners/volunteers have responsibilities for maintaining and accounting for
computers. The following are steps that are required in tracking, maintaining, processing, and
shipping Volunteer Program computers.

Computer Depot 3 Responsibilities
A Single Point Inventory Function updates the ITAMS (required within 10 days) when
computers are transferred between local and field offices.
Shipping
1) Laptops are pulled from inventory by first in, first out.
2) Laptops are imaged, encrypted, and barcodes are scanned.
3) Laptops are cleaned by:
    a. Removing stickers.
    b. Performing system checks.
    c. Checking battery levels.
    d. Inputting to the ITAMS.
    e. Verifying serial numbers and barcodes.
4) Laptops are placed in computer bags, packaged, and stored until shipped out to the
   volunteers.
5) Computers are packaged with all peripherals and sent to the partner or volunteer.



1
  The IRS’ authoritative record for asset control, where each piece of equipment is tracked from procurement to
disposal.
2
  The SPEC function’s computer system that is used to control Volunteer Program computers.
3
  A centralized location that receives computers for the Volunteer Program, prepares them for use by loading the
operating system and tax preparation software, ships them to volunteers, and stores them when they are not in use.
                                                                                                           Page 14
                        Accountability Over Volunteer Program Computers
                       Has Significantly Improved, but Providing Computers
                             to Volunteers Presents Many Challenges



Inventory Reconciliation
1) Inventory reconciliation occurs annually by June 30, during the recurring inventory cycle.
2) Laptops are reconciled by matching information gathered at the time of the inventory with
   that recorded in the ITAMS and can be done using a barcode scanner or through manual
   touch.
3) Annually, after June 30, each office is sent a Reconciliation Plan along with a Certification
   letter that also includes the results from the analysis of the ITAMS.
4) Outstanding errors found during the analysis have to be resolved by the end of the fiscal year.
5) Lost or missing computers must have a Report of Survey (Form 1933) prepared.

Volunteer Responsibilities
The volunteers or partners have responsibilities in accounting for and verifying the receipt of
laptops.
Receipt of Laptops
1) Verify that the equipment received matches the packing list.
2) Sign and return the packing list to the Computer Depot within 20 days of receipt.
3) Verify the receipt of the laptop and mail the Property Loan Agreement to the SPEC function
   within 20 days.
4) Charge the laptop battery for 24 hours before using the computer.
Returning the Laptops
1) Delete (wipe) data from the laptop’s hard drive before returning it.
2) Ship the laptop, using the same shipping box and packing materials the laptop was received
   in, to the Computer Depot by May 15.

SPEC Function Responsibilities
There are three areas within the SPEC function that are involved in the loan of computers to the
Volunteer Program sites.
SPEC Headquarters
1) Coordinates with the Computer Depot to share SPEC function needs and answers any
   questions the Computer Depot employees have.




                                                                                           Page 15
                            Accountability Over Volunteer Program Computers
                           Has Significantly Improved, but Providing Computers
                                 to Volunteers Presents Many Challenges



2) Provides guidance for equipment orders, return of equipment, and STARS equipment
   maintenance with the Area. 4
3) Places all equipment orders with the Computer Depot in a mutually agreed format.
4) Provides information to the Area analysts relating to the Computer Depot, equipment, annual
   inventory actions, orders, problems, etc.
5) Communicates changes/corrections needed in the STARS to the Area.
6) Facilitates any changes to the STARS concerning equipment at the Computer Depot.
7) Ensures publications, forms, and documents related to the Volunteer Program computers are
   updated as needed.
SPEC Area
1) Ensures the Territory offices complete computer orders and notify SPEC headquarters
   analysts of any anomalies with orders and/or shipments made to the Territory or partner.
2) Communicates between SPEC Headquarters and the Territory.
3) Ensures the Territory, Area, and SPEC Headquarters is informed of concerns relating to the
   Computer Depot, equipment, annual inventory actions, orders, etc. and any problems raised
   by the partners/volunteers relating to the equipment, orders, use, etc.
4) Conducts Territory reviews of equipment controlled in the STARS.
5) Ensures Territories respond to SPEC Headquarter and Area requests for action.
6) Ensures Territories complete annual equipment certification actions.
7) Shifts equipment among its territories to ensure the greatest return on investment 5 while
   balancing service coverage. This includes ensuring equipment is used only for its intended
   purpose.
SPEC Territory
1) Determines the technology needs of its partners.
2) Works with the Area Office to obtain additional resources when needed.
3) Ensures equipment is used at an optimum level to balance with return on investment and
   service coverage.



4
 The SPEC function is divided geographically into 4 Areas and 37 Territories.
5
 The net profit or loss in an accounting period divided by the capital investment used during the period, usually
expressed as an annual percentage return.
                                                                                                            Page 16
                        Accountability Over Volunteer Program Computers
                       Has Significantly Improved, but Providing Computers
                             to Volunteers Presents Many Challenges



4) Ensures that Volunteer Income Tax Assistance/Tax Counseling for the Elderly equipment is
   used only for the Volunteer Program.
5) Places all equipment orders as requested by the partners.
6) Confirms order information and delivery with partners/volunteers to ensure accurate
   delivery.
7) Secures Statement of Assurance Concerning Civil Rights Compliance for Internal Revenue
   Service SPEC Partnerships (Form 13325) or the Internal Revenue Service Civil Rights
   Assurance for Sub-recipients under SPEC Partnership Agreements (Form 13324) prior to
   delivery of the equipment.
8) Ensures the STARS correctly reflects contact information to ensure accurate completion of
   documentation of shipments by the Computer Depot.
9) Ensures the STARS correctly reflects the location of equipment at all times.
10) Communicates important information relating to the use of the equipment to
    partners/volunteers, such as passwords, use of equipment, etc.
11) Responds promptly to Area/Headquarter questions or concerns relating to the equipment.
12) Secures the Property Loan Agreement on loaned equipment and provides it to the Computer
    Depot in accordance with Annual Certification procedures.
13) Reports, secures, and maintains documentation on lost and/or stolen equipment.
14) Conducts site visits and reviews.
15) Apprises Area analysts of any problems relating to the equipment, orders, inventory, use, etc.




                                                                                          Page 17
                            Accountability Over Volunteer Program Computers
                           Has Significantly Improved, but Providing Computers
                                 to Volunteers Presents Many Challenges



                                                                                                 Appendix V

           Procedures for Reporting and Documenting
                   Lost or Stolen Computers

To ensure proper reporting of lost or stolen IRS equipment, the IRS Relationship Manager
gathers as much information as possible about the lost or stolen equipment from the initial
contact with the Volunteer Program participant. A Checklist for Stolen Equipment
(Form 13747) 1 is used to document the theft. It requires that the Relationship Manager:
1) Immediately notify the local Territory 2 manager and report the theft within 1 hour of
   notification to the Computer Security Incident Response Capability office.
2) Contact the TIGTA Office of Investigations.
3) Contact Customer Assistance, Relationships, and Education function and SPEC function
   management.
4) Contact the Volunteer Program Computer Depot. 3
5) If tax return information was present, determine the need to notify the impacted taxpayers.
6) Determine location of the IRS equipment when it was stolen and record barcode, serial
   number, manufacturer, and model.
7) If equipment has been stolen more than once, determine if equipment will continue to be
   loaned to the partner.
8) Report to the police and request a copy of the local police report.
9) Attach a copy of the Property Loan Agreement to an assessment memorandum.
10) Update the STARS to reflect the theft of the equipment.
11) Upon receipt in headquarters, review the package for completeness and share it with the
    Chief, Oversight and Analysis, and the Director, Field Operations. The documentation
    package is mailed to the Computer Depot.
12) The Computer Depot employee should complete a Report of Survey (Form 1933) and follow
    the appropriate steps to remove the computer from the ITAMS.

1
  The reverse of the form is completed for lost equipment.
2
  The SPEC function is divided geographically into 4 Areas and 37 Territories.
3
  A centralized location that receives computers for the Volunteer Program, prepares them for use by loading the
operating system and tax preparation software, ships them to volunteers, and stores them when they are not in use.
                                                                                                           Page 18
        Accountability Over Volunteer Program Computers
       Has Significantly Improved, but Providing Computers
             to Volunteers Presents Many Challenges



                                                   Appendix VI

Management’s Response to the Draft Report




                                                             Page 19
 Accountability Over Volunteer Program Computers
Has Significantly Improved, but Providing Computers
      to Volunteers Presents Many Challenges




                                                      Page 20
